JO-8

FILED
I MAti 3 0 2021
^.^iPOg^f^RK

IN THE
SUPREME COURT OF THE UNITED STATES

DANIEL LITTLEPAGE

— PETITIONER

(Your Name)

vs.
STATE OF OHIO

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

_______________ SUPREME COURT OF OHIO_____________ 1______
(NAME OF COURT THAT LAST RULED ON MERITS OF YC^UR CASE)
PETITION FOR WRIT OF CERTIORARI

DANIEL LITTLEPAGE
(Your Name)
P.O. BOX 5500
(Address)
GHILLICOTHE, OHIO 45601
(City, State, Zip Code)
N/A
(Phone Number)

QUESTION(S) PRESENTED
1. Is a Petitioner Entitled to a New Trial when the "Bias" and
"Partial" behavior of a Trial Judge exceeds the Requirement
to prove "Structural" Error?(See Appendix E)
2. Does the "Bias" and "Partial" behavior that went into Appendix
E Violate Petitioner's Due Process and Equal Protection Rights
under the Fifth and Fourteenth Amendments to the United States
Constitution?
3. Is it an Abuse of Discretion and a Violation of Ohio Civ.R.8
(D) for the Court of Common Pleas, to Not respond to a proper- / ly filed "Structural" Error Motion? (See Appendix 15 in lieu of
Order / Judgment that has Not been rendered.)
3a. Does this failure to respond as noted in 3. above represent
the admission on the part of;the Court of Common Pleas, Hamil­
ton County, Ohio, that Petitioner's Argument is Correct?
4. Is it an Abuse of Discretion for the First District Court of
Appeals to Not respond to Petitioner's "Summary Judgment,"
Motion against the Court of Common Pleas? (See Appendix A in
lieu of Order / Judgment that has Not been rendered.)
5. Is it an Abuse of Discretion for
Ohio to Dismiss a properly filed
them to order the First District
Petitioner's "Summary Judgment"?

the State Supreme Court of
Writ of Mandamus, requesting
Court of Appeals to address
(See Appendix (5 and D),

6. Does a Trial Judge Lose his Immunity when he executes a Fraud­
ulent Order and Violates 28 U.S.C. § 47, which states "No
Judge Shall Hear or Determine An Appeal From The Decision of
A Case Or Issue Tried By Him"? (See Appendix E)
7. Is a Trial Judge's Judicial Immunity overcome if 1) The act­
ions "Alleged" were not taken in the Judge's Judicial Capac­
ity, or 2) If the actions, though judicial in nature, were

taken in the complete absence of all jurisdiction?(See Appen­
dix E)
8. Is a Court of Common Pleas

Judge, who Executes a Fraudulent

Order Guilty of "Using Sham Legal Process" - A Violation of
Ohio R.C. 2921.52? (See Appendix E)
9. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Impersonating" - A Violation of Ohio R.C*
2921.51? (See Appendix E)
10. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Fraud" - A Violation of Ohio R.C. 2913.01?
(See Appendix E)
11. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Falsification" - A Violation of Ohio R.C.
2921.13? (See Appendix E)
12. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Forgery" - A Violation of Ohio R.C. 2913.31?
(See Appendix E)
13 .
13. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Corrupt Activity" - A Violation of Ohio
R.C. 2923.32? (See Appendix E)
14. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Obstructing Justice" - A Violation of Ohio
R.C. 2921.32? (See Appendix E)
15. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Identity Fraud" - A Violation of Ohio R.C.
2913.49? (See Appendix E)

2

16. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Dereliction of Duty" - A Violation of Ohio
R.C. 2921.44? (See Appendix E}
17. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Tampering with Evidence" - A Violation of
Ohio R.C. 2921.13? (See Appendix E)
18. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Conspiracy" - A Violation of Ohio R.C. 2923.
01? (See Appendix E)
19. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Complicity" - A Violation of Ohio R.C. 2923.
03? (See Appendix E)
20. Is a Court of Common Pleas Judge, who Creates and Executes a
Forged and Fraudulent Order with No_ Authority or Jurisdiction
Guilty of Fraud Upon The Court? (See Appendix E)
21. Is a Judge, who Executes a Fraudulent Order and who Instructs
the Clerk of Courts to Mail it to Petitioner Guilty of "Mail
Fraud"

A Violation of 18 U.S.C. 1341 and 18 U.S.C. 1342?

22. Is a Judge, who Executes a Fraudulent Order and who Instructs
the Clerk of Courts to Mail it to Petitioner Guilty of "Us­
ing Mail To Defraud" - A Violation of 18 U.S.C. 1342?
23. Is a Judge, who Executes a Fraudulent Order and who Instructs
the Clerk to Mail it to Petitioner Guilty of "Conspiracy To
A Violation of 18 U.S.C. 371?
Commit Mail Fraud"

3

LIST OF PARTIES

in All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover lage. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW ................................................................
JURISDICTION ....................................................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE ..................................................
REASONS FOR GRANTING THE WRIT ..............................
CONCLUSION ......................................................

1
2
3
4-6
7-14
14

INDEX TO APPENDICES
APPENDIX A - In Lieu of Order / Judgment that Refuses to be
Rendered by the First District Court of App eals.
APPENDIX B - In Lieu of Order / Judgment that Refuses to be
Rendered by the Court of Common Pleas, Hami lton
County, Ohio.
APPENDIX C - Decision to Dismiss Writ of Mandamus by the Supreme
Court of Ohio.
APPENDIX D - Writ of Mandamus to the Supreme Court of OhpLo.
APPENDIX E - Forged and Fraudulent Order created and exetuted by
a Judge with no authority and no jurisdiction.
APPENDIX F - Petitioner's Criminal Record.

TABLE OF AUTHORITIES CITuu
STATUTES AND RULES CITED IN
QUESTIONS PRESENTED
28 U.S.C. § 47
O.R.C. 2921.52
O.R.C. 2921.51
O.R.C. 2913.01
O.R.C. 2921.13
O.R.C. 2913.31
O.R.C. 2923.32
O.R.C. 2921.32'
O.R.C. 2913.49
O.R.C. 2921.44
O.R.C. 2921.12
O.R.C. 2923.01
O.R.C. 2923.03
18 U.S.C. § 1341
18 U.S.C. § 1342
18 U.S.C. § 371
CASES CITED IN
STATEMENT OF THE CASE
Withrow v. Larkin 421 U.S. 35, 47, 95
S.Ct. 1456, 43 L.Ed. 2d 712 (1975)

PAGE
1
2
2
2
2
2
2
2
2
3
3
3
3
3
3
3
PAGE
6

STATUTES AND RULES CITED IN
STATEMENT OF THE CASE - NONE
CASES CITED IN
REASONS FOR GRANTING THE PETITION
Arizona v. Fulminante, 499 U.S. 279 (1991)
Turney v. Ohio, 273 U.S. 510 (1927)
Re Murchinson, 349 U.S. 57 (1955)
Ward v. Village of Monroeville, 409 U.S.
57 (1972)
Bracy v. Gramley, 520 U.S. 899 (1997)

7PAGE
7
7
7
7
7

TABLE OF AUTHORITIES CONT.
State v. Lamar, 95 Ohio St. 3d 181, 2002-0hio-2128,

8

767 ISLE.2d 166, fl34, citing Rose v. Clark, 478 U.S.
570, 577, 106 S.Ct. 3101, 92 L.Ed.2d 460 (1986)
Turney v. Ohio, 273 U.S. 510 (1927)

Forrester v. White, 484 U.S. @ 227-229 (1988)
Stump v. Sparkman, 435 U.S. @ 360 (1978)
Ex Parte Virginia, 100 U.S. 339, 348-349, 25 L.Ed.;
676 (1880)
Ireland v. Tunis, 113 F.3d-1435, 1997 Fed. App.
0156 (1997)
Bradley v. Fischer, 13 wall. @ 351 (1872)
Coley v. Bagley, 706 F.3d 741 (2013)
Withrow v. Larkin, 421 U.S. 35, 47, 95 S.Ct. 1456,
43 L.Ed.2d 712 (1975)
Withrow v. Larkin, 421 U.S. 35, 47, 95 S.Ct. 1456,
43 L.Ed.2d 712 (1975)
Liljeberg v. Health Service Acquisition Corp., 486
U.S. 847, 108 S.Ct. 2194 (1988)
United States v. Balistrieri, 779 F.2d 1192 (1985)
Turney v. Ohio, 273 U.S. 510 (1927)
Neder v. United States, 527 U.S. @ 8 (1999)
Edwards v. Balisok, 520 U.S. 641, 647 (1997)
STATUTES AND RULES CITED IN
REASONS FOR GRANTING THE PETITION - NONE

8
8
8
8
9
9
9
9
10
10
10
11
11
11

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at.
___________
; or,
[ ] has been designated for publication but is not yet reported ; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at__ _________________ _____ ___________ ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_C
to the petition and is
[x] reported at 2020-1358
; or,
[ ] has been designated for publication but is not yet reported;! or,
DC is unpublished.
The opinion of the_
court
appears at Appendix
to the petition and is
[ ] reported at____ _________________ __ _________
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

to

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my ease
was______________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:------------------ ------------ and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including-------------- ----------- (date) on
in Application No___ A
-------------- mte)
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

lx] For cases from state courts:
The date on which the highest state court decided my case was 1/27/21
A copy of that decision appears at Appendix c
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certioi'ari was granted
to and including------------------ _ (date) on______________(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
* —-rst Amendment; Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble, and to peti­
tion the Goverment for a redress of grievances.
2. Fifth Amendment: No person shall be held to answer for a
capital, or otherwise infamous crime, unless on a present­
ment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of War or public danger; nor shall any
person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any crimi­
nal case to be a witness against himself, nor be deprived of
life, liberty, or property, without the Due Process df law;
nor shall private property be taken for public use, without
just compensation.
3* Fourteenth Amendment: All persons born or naturalizecl in the
United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law whichjshall
abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, or
liberty, or property, without Due Process of law; nor deny to
any person within its jurisdiction the equal protection of
the laws.

3

STATEMENT OF THE CASE

J

This Certiorari is about "Structural"
Judge, an Officer of the Court, and the
Fifth, and Fourteenth Amendments to the
tion as well as the Abuse of Discretion

Error committed by a
Violation of the First,
United States Constituby the Lower Stl te Courts
failing to do their Sworn Duty to Impartially Adjudicati these
serious Crimes and Violations. This attack on the machinery of
justice is of National Importance.
- This Certiorari involves a Judge, an Officer of the Court, who
under the Color of Law" and the "Color of Office" knowingly and
with Maleasance Impersonated an Appellate Court Judge or one hav­
ing Appellate Court Authority while he himself was a Common Pleas
Judge. This conduct by a Public Official is of NationaljImpor­
tance and its impact on the delivery of justice. See Appendix E
Herein.
'
This Certiorari involves a Court of Common Pleas Judge, who
Created and Executed a Forged and Fraudulent Order with No Au­
thority or Jurisdiction to do so. This constitutes "Structural"
Error and shows that a "Biased" and "Partial" Judge presided
over Petitioner in his "Original" and Subsequent proceedings.
This is of National Importance. See Appendix E Herein.
It is of National Importance that while Common Pleas Judge
Norbert A. Nadel, was, with Malfeasance, willingly and knowingly
Creating and Executing this Forged and Fraudulent Order Herein
Appendix E, he also committed Multiple Crimes and Violations
that are listed under Questions Presented in this Certiorari
7_ thru 22_ for which he has tfo Immunity.
j
These Crimes that were committed by Common Pleas Judgej Norbert
A. Nadel, in the Creation and Execution of Appendix E Herein are
Felonies and are of National Importance and for the Court of
Common Pleas, Hamilton County, Ohio, The First District Court of
Appeals, Hamilton County, Ohio, and the State Supreme Court of
4

t

Ohio to refuse to adjudicate these serious Crimes and Violations
is Disrespectful and Disgraceful to the Judicial Proces s. These
Officers of the Court^who took an Oath to be Impartial/Failed.
It is of National Importance when the Court of Common Pleas,
Hamilton County, Ohio, Refuses to Render a Decision in a properly
Filed " Structural" Error Motion against

"Biased," "Partial,"
and Corrupt" Judge, an Officer of the Court, when the Facts and
Evidence presented to them Support
___ the Motion. See Appendix B
Herein, in lieu of Order or Judgment that has Not been Rendered.
It is of National Importance when the First District Court of
Appeals, Hamilton County, Ohio, Refuses to Answer or Grant Peti­
tioner his properly Filed "Summary Judgment" against thk Court of
!

Common Pleas, Hamilton County, Ohio, for its Failure to Respond
to the "Structural" Error Motion against Common Pleas Judge
Norbert A. Nadel, when the Facts and Evidence presented support
the Motion. See Appendix A Herein, in lieu of Order or Judgment
that has Not been Rendered.
It is of National Importance when a State Supreme Court Dis­
misses a properly Filed Writ of Mandamus Requesting tha: the
First District Court of Appeals, Hamilton County, Ohio, to do
its Sworn Duty and Rule On / Grant the properly Filed "Summary
Judgment" against the Court of Common Pleas, Hamilton County,
Ohio, Filed by the Petitioner. See Appendix C which is the Order
from the State Supreme Court of Ohio Dismissing the Writ of Man­
damus . Also See Appendix J}, the Writ of Mandamus to the State
Supreme Court of Ohio Filed by the Petitioner.
It is of National Importance when the State Supreme Court of
Ohio Dismisses a properly Filed Writ of Mandamus against the
First District Court of Appeals, Hamilton County, Ohio,|when
Two (2) of the Justices sitting on the State Supreme Court of
Ohio, Justice Patrick R. DeWine and Justice Patrick F. Fischer,
both served with "Biased" and "Partial" Judge Norbert A. Nadel,
when he Created and Executed his Forged and Fraudulent order
5

with No Authority or Jurisdiction. See Appendix~E Herein.
It cannot be said that No_ Influence was present in the State
Supreme Court of Ohio in Denying Petitioner's properly Filed
Writ of Mandamus. See Appendix D Herein.
The
cries
undue
Court

appearence of impropriety pervades these proceedings and
out to the presence of undue influence. It is evident that
influence was exerted in this denial by the State Supreme
of Ohio.

The only path a Petitioner / Defendant has to get Justice in
His / Her case is through the Courts. It starts out in the Court
of Common Pleas / Trial Court and proceeds through the Judicial
stages until, if need be^it reaches the Supreme Court oi the
United States.
But The Legal Process is Abused by the State Courts when they
Refuse to Render a Decision at all or to Grant the Entitled re­
lief all because the Crimes and Violations were committeid by a
Judge, an Officer of the Court who Abused his Office anc. his
Position under the "Color of Law" and the "Color of Office."
What happen to the Courts being Impartial5! This sets s. Danger­
ous precedent that when a Petitioner / Defendant has a Case with
Merit and Evidence against a "Biased," "Partial" and "Corrupt"
Judge, an Officer of the Court, that it is Ok to Cover it Up by
Refusing to Render a Decision at all. See Appendix B^ and E Here­
in .
This Honorable Court has stated "That A Biased Decision Maker
Is Constitutionally Unacceptable." Withrow v. Larkin, 421 U.S.
35, 47, 95 S.Ct. 1456, 43 L.Ed.2d 712 (1975). This couldn't be
more true than in the Petitioner's case before this Honorable
i
Court.

6

REASONS for granting the petition
Petitioner was charged with Aggravated Murder and a Firearm
Specification in July 2013. In January 2014, Common Pleas Judge
Norbert A. Nadel, sentenced Petitioner to (20) Years to Life,
plus (3) Years on the Firearm Specification when No Firearm was
Ever recovered or Proven to be used by Petitioner.
To set the stage for this properly Filed Certiorari before this
Honorable Court, the Judge involved, an Officer of the Court, has
been the overseer both Legally and Illegally of Petition er' s case
from 2013 thru 2016.
The right of an Accused to be presided over by a Fair and Im­
partial Judge (Emphasis Added) is a Basic Right of Due Process
and Equal Protection under the Fifth and Fourteenth Amen dments
of the United States Constitution. Arizona v. Fulminante, 499
U.S. 279 (1991); Turney v. Ohio, 273 U.S. 510 (1927); Re Murchinson, 349 U.S. 57 (1955); Ward v. Village of Monroeville, 409 U.S.
57 (1972).
:

"[T]he Due Process Clause Clearly requires a Fair Triajl in a
Fair Tribunal Before a Judge with No Actual Bias against the
Defendant or Interest in the outcome of his particular c ase."
Bracy v. Gramley, 520 U.S. 899 (1997). But Obviously, Ju dge
Norbert A. Nadel Proved by his Corrupt Actions in the Cr eation
and Execution of Appendix ]£ Herein, that he had a person al interest and was more than "Biased" in Petitioner's case.
Fairness for purposes of the Due Process Guarantee "Requires
the absence of Actual Bias in the trial of cases" and "A system
of law [T]hat endeavor[s] to prevent even the probability of un­
fairness." In Re Murchinson, 349 U.S. 133 (1955). Appendix E
Herein supports the claim of "Actual Bias" and that Petitioner
was Not tried before a "Fair" Tribunal.

7

It is well established that a Criminal Defendant who is tried
before a "Biased" Judge has been Denied Due Process. State v.
Lamar, 95 Ohio St.3d 181, 2002-0hio-2128, 767 N.E. 2d 166, 5134,
citing Rose v. Clark, 478 U.S. 570, 577, 106 S.Ct. 3101

92 L.Ed.

2d 460 (1986); Turney v. Ohio, 273 U.S. 510 (1927). Appendix E
Herein supports a claim of a "Biased" Judge.
Appendix E Herein supports the claim that Petitioner was tried
by a "Biased" and "Partial" Judge, and that Petitioner's Due Pro­
cess and Equal Protection Rights under the First, Fifth] and
Fourteenth Amendments to the United States Constitution were
Violated.
Any Judge, an Officer of the Court, who Lies in wait, Not Weeks
but Months, after he sentenced Petitioner, intercepts ar, "Origi­
nal" Appeal from His / Her Judgment and Sentence and whc Creates
and Executes a Forged and Fraudulent Order, as is demonstrated
in Appendix E Herein, without Authority or Jurisdiction to do so,
Establishes Definitively that He / She was "Biased," "Partial,"
and "Corrupt." This is also "Structural" Error.
When this "Biased" Decision Maker Created and Executed his
Forged and Fraudulent Order in Appendix E Herein, he also Com­
mitted Multiple Crimes and Violations listed in Questions 1_ thru
22 in this Certiorari for which he has No Immunity.
This Honorable Court made it clear about the loss of I mmunity
of a Judge and it is as follows: "Judicial Immunity" is overcome
if 1) The actions "Alleged" were not taken in the Judge' s Judicial Capacity, or 2) If the actions, though Judicial in nature,
were taken in the complete absence of all Jurisdiction. Forrester
v. White, 484 U.S. at 227-229; Stump v.Sparkman, 435 U.S. at 360.
Appendix E Herein supports this Loss of Immunity.
This Honorable Court has also reconized that a Judge i s Not
absolutely Immune from Criminal Liability, Ex Parte Virgina, 100
U.S. 339, 348-349, 25 L.Ed 676 (1880).:Appendix E Herein supports
this.
8

A Judge has No Immunity if an act is done in the cleat absence
of all jurisdiction, for "Judicial Immunity" purposes , if the
matter upon which the Judge acts is clearly outside the subject
matter jurisdiction of the Court over which the Judge presides.
Ireland v. Tunis, 113 F.3d 1435, 1997 Fed. App. 0156 (1997);
Bradley v. Fischer, .13 Wall, at 351. Appendix El Herein supports
this .
This Honorable Court has stated "That A "Biased" Decision Maker
Is Constitutionally Unacceptable." Withrow v. Larkin, 4^1 U.S. 35
47, 95 S.Ct. 1456, 43 L.Ed. 2d 712 (1975).
"Judicial Bias" is a Deep-Seated favortism or antagonism that
makes Fair Judgment Impossible. The Due Process Clause Clearly
requires a Fair Trial in a Fair Tribunal before a Judge!with No
Actual "Bias" against the Petitioner / Defendant or interest in
the outcome of his particular case. Coley v. Bagley, 706 F.3d 741
(2013).
To establish "Judicial Bias" a Petitioner / Defendant need Not
prove "Actual Bias" but merely an Unconstitutionally High Prob­
ability of Actual Bias. Coley v. Bagley, 706 F.3d 741 (^013).
Appendix _E Herein proves "Judicial Bias" and "Actual Bibs."
It is obvious that Appendix IS Herein, which is the Forged and
Fraudulent Order Created and Executed by Common Pleas Jadge Norbert A. Nadel, with No_ Authority or Jurisdiction, fits well with­
in what is needed to prove "Judicial Bias" and "Actual Bias" and
that Common Pleas Judge Norbert A. Nadel, had a personal interest
in the outcome of Petitioner's case.
j
Again, as stated by this Honorable Court "That A "Biased"
Decision Maker Is Constitutionally Unacceptable." Withrow v.
Larkin, 421 U.S..35, 47, 95 S.Ct. 1456, 43 L.Ed. 2d 712 (1975).

9

So this Honorable'Court doesn't get Distracted or Sidetracked
about the Indisputable Evidence in Appendix E Herein, tlpe Argu­
ment, Evidence and Questions are Not about the "Sham" Appeal
mentioned within Appendix E Herein, the Argument, Evidence and
Questions presented are all about the Crimes and Violations that
were committed by Common Pleas Judge Norbert A. Nadel in the Cre­
ation and Execution of Appendix E Herein, under the "Coior of
Law" and the "Color of Office" that Prove "Structural" Error and
that Petitioner was Tried by a "Biased," "Partial" and Corrupt
Judge in his "Original" Proceedings and beyond.
"Biased," "Partiality" and "Corruption" by a Judge, an Officer
of the Court, is Not something that can be turned on and off like
a switch. Once "Biased," "Partial" and / or "Corrupt," always
"Biased," "Partial" and / or "Corrupt." It doesn't matter in what
part of the Case the "Bias," "Partiality" or "Corruption" took
I
place, it Taints the whole Case and makes it Void.
Because as this Honorable has stated "That A Biased Decision
Maker Is Constitutionally Unacceptable." Withrow v. Larkin, 421
U.S. 35, 47, 95 S.Ct. 1456, 43 L.Ed. 2d 712 (1975).
Courts have Repeatedly held that Proof of Partiality of a Judge
is Not a requirement, only (Emphasis Added) the appearance of
Partiality. Liljeberg v. Health Service Acquisition Corp., 486
U.S. 847, 108 S.Ct. 2194 (1988) (What Matters Is Not The Reality
of Bias or Prejudice But Its Appearance) United States v. Balistrieri, 779 F.2d 1191 (1985). Appendix IS Herein Proves ijias, Par­
tiality by Common Pleas Judge Norbert A. Nadel, against Peti­
tioner .
This also supports Petitioner's claim of "Structural" I Error. It
is important to Identify and State what this Honorable Court con­
siders "Structural" Error. Appendix IS Herein supports "Structural
Error.
This Honorable Court has stated, ("[T]he Court's precedents

10

cVri'p’

•.

[have] determin[edj that certain errors are deemed "Structural"
and require reversal because they cause fundamental unfairness,
either to the Defendant in the specific case or by pervasive
undermining of the systemic requirements of a Fair and open Ju­
dicial process. ... Those precedents include ... Turney \[. Ohio,
273 U.S. 510, 535 (1927) ("Biased Judge"); Neder v. United States,
527 U.S. at 8 ("Biased Trial Judge" is Structural [Error], and
thus [Is] subject to automatic reversal"); Edwards v. Balisok,
520 U.S. 641, 647 (1997) (A Criminal Defendant Tried By A Partial
Judge Is Entitled To Have His Conviction Set Aside, No atter How
Strong The Evidence Against Him.") Appendix E Herein supports
this.

1

"Structural" Errors are errors that the Court will always consider to have violated your right to a Fair Trial. Therefore,
these errors are Not subject to the Harmless Error Rule, and you
do Not have to prove to the Court that you were actually harmed.
Columbia Human Rights Law Review.
To address the "Structural" Error committed by then "Biased,"
"Partial" and / or "Corrupt" Common Pleas Judge Norbert A. Nadel,
Petitioner, on May 15, 2020, properly Filed a "Motion To Vacate
Judgment Of Conviction Due To "Structural Error" Pursuant To The
Due Process Clause Of The Fifth And Fourteenth Amendments To The
United States Constitution." As of this filing No_ answer or de~
cision has been Rendered by design of the state court. S ee Append ix
Herein in lieu of Order or Judgment that has Not be en Rendered.
On September 29, 2020, due to the Failure and Refusal of the
Court of Common Pleas, Hamilton County, Ohio, to answer the
"Structural" Error Motion that was Filed on May 15, 2020, Peti­
tioner properly Filed a Motion for "Summary Judgment" in the
First District Court of Appeals, Hamilton County,=Ohio, against
the Court of Common Pleas. As of this filing No_ answer or de­
cision has been Rendered by design of the state court. S ee Append —
ix A Herein in lieu of Order or Judgment that has Not been Ren11

i

!

